TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Review of Fair Tax Collection Practices
                      Violations During Fiscal Year 2013



                                          May 27, 2014

                             Reference Number: 2014-10-036




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


REVIEW OF FAIR TAX COLLECTION                        In addition, no cases were identified that were
PRACTICES VIOLATIONS DURING                          miscoded as FTCP violations, or that should
FISCAL YEAR 2013                                     have been coded as potential FTCP violations
                                                     but were not. Also, there were no civil actions

Highlights
                                                     resulting in monetary awards for damages to
                                                     taxpayers because of an FTCP violation.
                                                     WHAT TIGTA RECOMMENDED
Final Report issued on May 27, 2014
                                                     TIGTA made no recommendations in this report.
Highlights of Reference Number: 2014-10-036          However, key IRS management officials
to the Internal Revenue Service Chief Counsel        reviewed the report prior to issuance and agreed
and Internal Revenue Service Human Capital           with the facts and conclusions presented.
Officer.
IMPACT ON TAXPAYERS
The abuse or harassment of taxpayers by
IRS employees while attempting to collect taxes
reflects poorly on the IRS and can have a
negative impact on voluntary compliance. It is
important that taxpayers receive fair and
balanced treatment from IRS employees when
attempting to collect taxes.
WHY TIGTA DID THE AUDIT
The overall objective of this review was to obtain
information on any reported IRS administrative
or civil actions resulting from violations of Fair
Tax Collection Practices (FTCP) (Internal
Revenue Code Section 6304) for cases opened
after July 22, 1998, and closed during Fiscal
Year 2013. This information will be used to
comply with the IRS Restructuring and Reform
Act of 1998 requirements that TIGTA include in
one of its Semiannual Reports to Congress
information regarding administrative or civil
actions related to FTCP violations.
WHAT TIGTA FOUND
Two FTCP violations were identified for cases
on the IRS Human Capital Officer Workforce
Relations’ Automated Labor and Employee
Relations Tracking System that were closed in
Fiscal Year 2013. Both employees were
revenue officers performing collection work, and
each case involved the revenue officers
contacting taxpayers directly, instead of
contacting the taxpayer’s power of attorney, as
required. The IRS took administrative action of
at least admonishment against both employees.
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   May 27, 2014


 MEMORANDUM FOR CHIEF COUNSEL
                INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Review of Fair Tax Collection Practices
                               Violations During Fiscal Year 2013 (Audit # 201410006)

 This report presents the results of our review to obtain information on any reported Internal
 Revenue Service (IRS) administrative or civil actions resulting from violations of Fair Tax
 Collection Practices (FTCP)1 for cases opened after July 22, 1998, and closed during Fiscal
 Year2 2013. Information found in this report regarding administrative or civil actions related to
 FTCP violations will be used to comply with the IRS Restructuring and Reform Act of 19983
 Section 1102(d)(1)(G)4 requirement that the Treasury Inspector General for Tax Administration
 include this information in one of its Semiannual Reports to Congress. This audit is included in
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan
 and addresses the major management challenge of Taxpayer Protection and Rights.
 We made no recommendations in this report. However, key IRS management officials reviewed
 the report prior to issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report results. If
 you have any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for
 Audit (Management Services and Exempt Organizations).



 1
   26 U.S.C. § 6304 (2012).
 2
   Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
 year begins on October 1 and ends on September 30.
 3
   Pub. L. No. 105-206, Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C.,
 19 U.S.C., 22 U.S.C., 23 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 4
   Pub. L. No. 105-206, 112 Stat 702-703.
                                 Review of Fair Tax Collection Practices Violations
                                              During Fiscal Year 2013




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Administrative Actions Were Taken to Address Fair Tax Collection
          Practices Violations ...................................................................................... Page 3
          No Fair Tax Collection Practices Civil Actions Resulted in Monetary
          Settlements to Taxpayers .............................................................................. Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 5
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Fair Tax Collection Practices Provisions ............................. Page 9
          Appendix V – Fair Tax Collection Practices Violation Issue Codes ............ Page 10
         Review of Fair Tax Collection Practices Violations
                      During Fiscal Year 2013




                  Abbreviations

ALERTS      Automated Labor and Employee Relations Tracking System
FTCP        Fair Tax Collection Practices
IRS         Internal Revenue Service
TIGTA       Treasury Inspector General for Tax Administration
                             Review of Fair Tax Collection Practices Violations
                                          During Fiscal Year 2013




                                             Background

The Fair Debt Collection Practices Act,1 as originally enacted,
included provisions that prohibit various collection abuses and
harassment in the private sector. However, the restrictions did      Internal Revenue Service
                                                                    employees are required to
not apply to the Federal Government until passage of the
                                                                     follow Fair Tax Collection
Internal Revenue Service (IRS) Restructuring and Reform Act        Practices, similar to those in
of 1998.2 Congress believed that it was appropriate to require        the Fair Debt Collection
the IRS to comply with certain portions of the Fair Debt                   Practices Act.
Collection Practices Act and be at least as considerate to
taxpayers as private creditors are required to be with their
customers. The IRS Restructuring and Reform Act of 1998 Section (§) 3466 requires the IRS to
follow provisions, known as Fair Tax Collection Practices (FTCP),3 similar to those in the Fair
Debt Collection Practices Act.
IRS employees who violate any FTCP provision are subject to disciplinary actions. Violations
and related disciplinary actions are tracked on the IRS Human Capital Officer’s Automated
Labor and Employee Relations Tracking System (ALERTS). In addition, the Federal
Government may be subject to claims for damages under 26 U.S.C. § 7433, Civil Damages for
Certain Unauthorized Collection Actions, if the FTCP violations are substantiated. Taxpayer
civil actions are tracked on the Office of Chief Counsel’s Counsel Automated System
Environment.
The IRS Restructuring and Reform Act of 1998 § 1102(d)(1)(G)4 requires the Treasury Inspector
General for Tax Administration (TIGTA) to include in one of its Semiannual Reports to
Congress information regarding administrative or civil actions related to FTCP violations listed
in 26 U.S.C. § 6304.5 The Semiannual Report must provide a summary of such actions and
include any judgments or awards granted to taxpayers. TIGTA is required to report as violations
the actions taken by IRS employees who were involved in a collection activity and who received
a disciplinary action that is considered an administration action. The law does not provide a
definition of administrative action; however, for this review, we used the IRS’s definition, which




1
  15 U.S.C. §§ 1601 note, 1692-1692o (2006).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  See Appendix IV for a detailed description of FTCP provisions.
4
  Pub. L. No. 105-206, 112 Stat. 702-703.
5
  26 U.S.C. § 6304 (2012).
                                                                                                              Page 1
                            Review of Fair Tax Collection Practices Violations
                                         During Fiscal Year 2013



is action that ranges from a letter of admonishment6 to removal. Information from this report
will be used to meet the requirements of the IRS Restructuring and Reform Act of 1998
§ 1102 (d)(1)(G).
This review was performed with information obtained from the offices of the IRS Human Capital
Officer and Chief Counsel in the IRS National Headquarters in Washington, D.C., during the
period November 2013 through April 2014. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. This audit did not address potential
violations not reported to the IRS or TIGTA, or documented on the ALERTS. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
 A disciplinary action that involves the manager holding a discussion with the employee to advise the employee that
he or she has engaged in misconduct and that the misconduct should not be repeated. The manager confirms the
discussion with a written summary in a letter.
                                                                                                           Page 2
                            Review of Fair Tax Collection Practices Violations
                                         During Fiscal Year 2013




                                     Results of Review

Administrative Actions Were Taken to Address Fair Tax Collection
Practices Violations
The IRS closed two cases on the ALERTS during the period October 1, 2012, through
September 30, 2013,7 that involved FTCP violations resulting in administrative actions.8 Both
employees were revenue officers performing collection work, and each case involved the
revenue officers contacting taxpayers directly, instead of contacting the taxpayer’s power of
attorney, as required.
We determined that the IRS took the following administrative actions against the two employees
because of substantiated violations of the FTCP.
       One employee received oral counseling and a letter of admonishment.
       One employee received oral counseling, a letter of admonishment, and additional
        alternative disciplinary action greater than admonishment.
To determine if cases were coded correctly on the ALERTS, we reviewed other related
categories of cases involving employee misconduct allegations and determined that none should
have been coded as FTCP violations. In Fiscal Year9 2012, we reported that cases were
incorrectly miscoded when transferred from TIGTA’s Performance and Results Information
System to the IRS’s ALERTS.10 This year, we did not identify any cases that were miscoded
when transferred from the Performance and Results Information System to the ALERTS.

No Fair Tax Collection Practices Civil Actions Resulted in Monetary
Settlements to Taxpayers
Internal Revenue Code § 743311 provides that a taxpayer may bring a civil action for damages
against the Federal Government if an officer or employee of the IRS recklessly or intentionally,


7
  This includes cases opened after July 22, 1998, and closed during the period October 1, 2012, through
September 30, 2013.
8
  Ten cases were initially coded as FTCP complaints on the ALERTS, but eight cases were not substantiated.
9
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
10
   TIGTA, Ref. No. 2013-10-074, Potential Fair Tax Collection Practices Violations Were Inaccurately Coded (July
2013).
11
   26 U.S.C. § 7433.
                                                                                                          Page 3
                        Review of Fair Tax Collection Practices Violations
                                     During Fiscal Year 2013



or by reason of negligence, disregards any provision of the Internal Revenue Code, or related
regulation, in connection with the collection of Federal tax. According to the Office of Chief
Counsel, there were no cases closed on the Counsel Automated System Environment in Fiscal
Year 2013 for which the IRS paid damages to taxpayers resulting from a civil action filed due to
an FTCP violation.




                                                                                          Page 4
                             Review of Fair Tax Collection Practices Violations
                                          During Fiscal Year 2013



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to obtain information on any reported IRS administrative or civil
actions resulting from violations of the FTCP (Internal Revenue Code Section 6304) for cases
opened after July 22, 1998, and closed during Fiscal Year1 2013. This audit did not address
potential violations not reported to the IRS or TIGTA, or documented on the ALERTS. To
accomplish this objective, we:
I.      Identified the number of reported FTCP violations resulting in administrative actions for
        cases opened after July 22, 1998, and closed during Fiscal Year 2013.
        A. Obtained data for all cases posting to the ALERTS during Fiscal Year 2013 and
           performed tests to determine whether the data were reasonable. For example, tests
           determined date fields contained dates, blank fields were explainable, fields contained
           only applicable data required for that field, and that gaps in the sequential order of
           case numbers were explainable. The data were determined to be reliable for our
           purposes.
        B. Performed a query of the ALERTS for specific issue codes to identify cases that were
           opened after July 22, 1998, and closed during Fiscal Year 2013 where the affected
           party was a taxpayer/taxpayer representative, that involved employees performing
           specific collection-related activities, and that were coded as FTCP violations.
        C. Performed a query of the ALERTS for specific issue codes to identify cases that were
           opened after July 22, 1998, and closed during Fiscal Year 2013 where the affected
           party was a taxpayer/taxpayer representative, that involved employees performing
           specific collection-related activities, and that were potentially miscoded and should
           have been coded as an FTCP violation.
        D. Identified any cases coded as potential FTCP violations on the Performance and
           Results Information System and determined if those cases were coded correctly on
           the ALERTS.
II.     Identified the number of FTCP violations resulting in IRS civil actions (judgments or
        awards granted) by requesting a computer extract from the Office of Chief Counsel’s
        Counsel Automated System Environment database of any Subcategory 6304 (established
        to track FTCP violations) cases opened after July 22, 1998, and closed during


1
 Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
                                                                                                            Page 5
                       Review of Fair Tax Collection Practices Violations
                                    During Fiscal Year 2013



       Fiscal Year 2013. We did not conduct validation tests of this system. The Fiscal Year
       2013 data results were consistent with that of the past 14 years that this audit has been
       completed. Because the IRS’s Office of Chief Counsel reported that there were no FTCP
       violations resulting in IRS civil actions (judgments or awards granted), there was no data
       to validate. TIGTA believes there is low risk that cases were misclassified because
       qualified attorneys were deciding whether each case met the legal definition of an FTCP
       violation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the guidance used to code and work
potential FTCP violation cases, FTCP provisions used to identify potential violations, and the
ALERTS audit control log to substantiate the removal of cases from the database. We evaluated
these controls by interviewing management, performing queries of ALERTS data, and
comparing Performance and Results Information System cases with FTCP-related violation
codes to the issue codes assigned for cases received in the ALERTS.




                                                                                          Page 6
                       Review of Fair Tax Collection Practices Violations
                                    During Fiscal Year 2013



                                                                               Appendix II

                 Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Yolanda D. Brown, Lead Auditor
John W. Baxter, Senior Auditor




                                                                                         Page 7
                      Review of Fair Tax Collection Practices Violations
                                   During Fiscal Year 2013



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CF:CPIC:IC
Audit Liaisons:
       Chief Counsel CC
       IRS Human Capital Officer OS:HC




                                                                           Page 8
                              Review of Fair Tax Collection Practices Violations
                                           During Fiscal Year 2013



                                                                                     Appendix IV

                Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the
IRS Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with
taxpayers in connection with the collection of any unpaid tax:
          At unusual or inconvenient times.
          If the IRS knows that the taxpayer has obtained representation from a person authorized
           to practice before the IRS and the IRS knows or can easily obtain the representative’s
           name and address.
          At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
           communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
          Use or threat of violence or harm.
          Use of obscene or profane language.
          Causing a telephone to ring continuously with harassing intent.
          Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
    Pub. L. No. 105-206, 112 Stat. 768-769.
2
    15 U.S.C. §§ 1601 note, 1692-1692p (2006).
                                                                                                  Page 9
                         Review of Fair Tax Collection Practices Violations
                                      During Fiscal Year 2013



                                                                                Appendix V

 Fair Tax Collection Practices Violation Issue Codes

   Issue Code                                     Description
                   CONTACT TAXPAYER UNUSUAL TIME/PLACE – Contacting a
                   taxpayer before 8:00 a.m. or after 9:00 p.m., or at an unusual location or
       141         time, or location known or which should be known to be inconvenient to the
                   taxpayer.
                   CONTACT TAXPAYER WITHOUT REPRESENTATIVE – Contacting a
       142         taxpayer directly without the consent of the taxpayer’s Power of Attorney.
                   CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                   Contacting a taxpayer at their place of employment when it is known or
       143         should be known that the taxpayer’s employer prohibits the taxpayer from
                   receiving such communication.
                   USE/THREAT OF PHYSICAL HARM – Conduct which is intended to
       144         harass or abuse a taxpayer, or conduct which uses or threatens to use
                   violence or harm.
                   USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of
       145         obscene or profane language toward a taxpayer.
                   CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing
       146         a taxpayer’s telephone to ring continuously with harassing intent.
                   PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
       147         DISCLOSURE – Contacting a taxpayer by telephone without providing a
                   meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Manual (May 2013).




                                                                                       Page 10
